         estimony

                     STATEMENT OF
                  ROBERT J. LIEBERMAN
             ASSISTANT INSPECTOR GENERAL
               DEPARTMENT OF DEFENSE
                      BEFORE THE
    SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS
        HOUSE COMMITTEE ON VETERANS AFFAIRS
       UNITED STATES HOUSE OF REPRESENTATIVES
                           ON
           PROCURING PHARMACEUTICALS FOR
             THE DEPARTMENT OF DEFENSE



Report No. D-2000-131       DELIVERED: May 25, 2000



             Office of the Inspector General
                 Department of Defense
Mr. Chairman and Members of the Subcommittee:



I appreciate the opportunity to be here this morning to discuss

the views of the Office of the Inspector General, Department of

Defense, regarding the procurement of pharmaceutical products by

the Departments of Defense and Veterans Affairs.



The Defense Logistics Agency supports the Military Departments

with medical items through its subordinate agency, the Defense

Supply Center Philadelphia.   The Supply Center purchases items

for either direct delivery to the customer or delivery to a

Defense depot for storage until they are needed.   The Defense

Logistics Agency recovers administrative and overhead costs by

charging customers a surcharge on each item.    Although military

treatment facilities also purchase some items on local contracts

or by using credit cards for small purchases, the bulk of the

Defense procurement activity for pharmaceuticals is by the

Defense Supply Center Philadelphia.
                                                                                   2

Review of Medical Items



In June 1998, we issued an audit report 1/ that addressed

purchases of medical items by the Defense Logistics Agency and

Department of Veterans Affairs.         The intent of our review was to

look at the extent of medical items available through the

Department of Veterans Affairs that were also managed and

purchased by the Defense Logistics Agency.           For this hearing, I

will focus on the audit results related to pharmaceuticals.                  The

following Table shows the scope and complexity of Defense

Logistics Agency and Department of Veterans Affairs

pharmaceutical procurement activity in FY 1997, when the audit

was performed.



                                      Defense          Department
                                     Logistics         of Veterans
                                      Agency             Affairs

       Expenditures                    $751 M           $1,696 M

       Line Items Acquired              25,102              21,666




1/   98-154, Acquisition of Medical Items, June 15, 1998.    The report is

available at www.dodig.osd.mil.
                                                                    3

During that timeframe, the Defense Logistics Agency had

106 personnel slots dedicated to pharmaceuticals acquisition and

65 to medical readiness item management, including both

pharmaceuticals and other medical items.



We found extensive overlap between the Defense and Veterans

Affairs purchasing programs.    By matching National Drug Codes,

we identified 15,727 pharmaceutical products being purchased by

both organizations.    There were thousands of other items, such

as cremes, without a National Drug Code, so the duplication was

likely much greater.    Let me emphasize that I am referring to

duplication in the sense of buying the same types of products,

not making multiple procurements of the same items to fill the

same customer orders.



We performed a price comparison for 200 pharmaceuticals

purchased by both Departments.     Our comparison showed that the

Department of Veterans Affairs price was lower for 165 of 200

items (83 percent).     For 123 of the 165 items, however, the

price differences were less than 1 percent.



We also determined that the Defense Logistics Agency and

Department of Veterans Affairs used very similar acquisition

strategies.   They both contracted with prime vendors for direct
                                                                    4

delivery to users, who placed their own orders and usually

received next day delivery.   The use of prime vendors and direct

vendor delivery are considered best commercial practices and the

Defense Logistics Agency pharmaceutical program was one of the

first and most successful DoD applications of those practices.

The use of prime vendors and direct vendor delivery means that

the traditional logistics functions of centrally processing

requisitions and maintaining stock on-hand in depots are usually

no longer performed.   The Defense Logistics Agency and the

Department of Veterans Affairs essentially provided only a

contracting role.   In this role, we could discern no major

difference between services provided to medical treatment

facility customers by the Defense Logistics Agency and the

Department of Veterans Affairs.



Industry Perspective



Most manufacturers and prime vendors viewed dual acquisition of

medical items by the two Departments as inefficient.     In

response to our questionnaires, 11 of 15 manufacturers stated

they incurred additional administrative expenses dealing with

multiple Government agencies.     We also discussed the issue of

dual procurements by the two Departments with the Health

Industry Distributors Association and six prime vendor
                                                                     5

representatives.    All were consistent in their criticism of dual

acquisition of medical items, which also caused the distributors

to incur additional administrative expense from bidding multiple

contracts and maintaining separate records for both Departments.



Customer Perspective



We discussed the issue of purchasing pharmaceuticals with nine

military treatment facilities.    To obtain pharmaceuticals, six

facilities used Defense Logistics Agency prime vendor contracts

and three facilities used Department of Veterans Affairs prime

vendor contracts.    The prime vendors supplied 81 to 92 percent

of the facilities’ pharmaceuticals.    The facilities expressed

preferences for certain aspects of both Defense Logistics Agency

and Department of Veterans Affairs contracting services.    Their

decisions to choose either a Defense Logistics Agency or

Department of Veterans Affairs prime vendor contract were based

more on precedent than on the result of in-depth evaluation.



Benefits of Separate Planning and Purchasing



Defense Logistics Agency officials asserted the need to retain

their medical item acquisition capability by pointing to the
                                                                  6

requirements for performing a readiness function, providing

better customer support, and using improved business practices.



The Military Departments have estimated that about 4 percent of

medical items are critical and require special planning for

military contingencies.   A Defense Logistics Agency readiness

group identifies special provisions needed for those critical

items and the contracting group negotiates surge options with

prime vendors or, in some instances, buys items for storage.

This same group that identifies readiness provisions for

operationally critical items could also furnish them to the

Department of Veterans Affairs for negotiating surge

requirements in contracts and purchasing items for storage.



We see no reason why Defense should not be able to rely on

Veterans Affairs to provide responsive contract management

support for contingency situations.   The Army stated that

Veterans Affairs successfully supported the deployment of Fort

Hood units to Kuwait in 1996 by exercising surge options in a

prime vendor contract for pharmaceuticals.



We also concluded that the Department of Veterans Affairs and

Defense Logistics Agency provided essentially the same level of
                                                                  7

customer support and used the same commercial-type business

practices.



Benefits of Combined Purchasing



Although we agree that the Defense Logistics Agency should

retain responsibility for determining military readiness

provisions for critical pharmaceuticals, a strong case can be

made for merging the Defense and Veterans Affairs purchasing

activities.   Benefits would include the following:



First, the Government would present one face to suppliers and

cut the suppliers’ administrative costs, enabling those savings

to be reflected in prices.



Second, the Government would be able to cut its own

administrative costs.



Third, the Government’s negotiating leverage in the marketplace

could be improved.



Fourth, Defense customers might get additional price breaks

because of a lower Veterans Affairs surcharge.
                                                                   8

Fifth, the Defense Logistics Agency could realign its resources

to help compensate for major staffing reductions in other areas.



Response to Report



Our June 1998 report recommended that the Department of Defense

transfer acquisition responsibility for medical items to the

Department of Veterans Affairs except for militarily unique

medical items.   The Department of Defense responded that it

partially agreed and would form a team to work with the

Department of Veterans Affairs to expand cooperation, especially

in terms of achieving one face to industry on pricing issues.

Subsequently, a June 29, 1999, Memorandum of Agreement was

signed between the Departments and we accepted its terms as

being generally responsive to the audit finding.



The agreement allows each Department to continue contracting for

pharmaceuticals, but requires a sharing of pricing information

on contracts, migrates Defense medical facilities using

Department of Veterans Affairs prime vendor contracts to Defense

prime vendor contracts and prohibits each agency from marketing

their prime vendor contracts to the other Department’s medical

facilities.   Defense agreed to incorporate Department of

Veterans Affairs pharmaceutical contract prices into its Defense
                                                                     9

Electronic Catalogs.    Further, the Joint Federal Pharmacy

Executive Steering Committee will identify requirements and

negotiate committed use contracts for the use of both

Departments.    The intent is to establish one face to industry on

pricing issues and expand joint contracting.    We were informed

on March 3, 2000, that the Defense Logistics Agency expects

annual savings of $50 million from the initiatives, with

additional savings for the Department of Veterans Affairs.    We

have not reviewed the implementation of the Memorandum of

Agreement and the joint initiatives or the savings estimate.



Conclusion



The overall DoD acquisition workforce has been cut in half over

the past several years, with no proportionate decrease in

workload.    The Defense Logistics Agency should not retain any

more pharmaceutical procurement workload than absolutely

necessary to handle unique DoD management problems that the

Department of Veterans Affairs lacks the resources and expertise

to handle.     In our view, such unique requirements are minimal

and we remain hopeful that Defense will gradually shift routine

procurement workload to Veterans Affairs.     The main opportunity

for cost reduction, however, lies in achieving the best possible

prices.   We are encouraged by reports of progress in that
                                                                   10

regard.   The ongoing effort to implement the 1999 Memorandum of

Agreement should be monitored to ensure that both sides are

genuinely committed to minimizing duplication, enhancing the

Government’s best interest, and reducing customer costs.   Thank

you for your interest in my office’s views on this matter.
